<html>
<title> - ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2013 BUDGET HEARING</title>
<body><pre>[Senate Hearing 112-964]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 112-964

                    ENVIRONMENTAL PROTECTION AGENCY 
                    FISCAL YEAR 2013 BUDGET HEARING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-024 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 22, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     7
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     8
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    10
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    11
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    13
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    35
Vitter, Hon. David, U.S. Senator from the State of Louisiana, 
  prepared statement.............................................    35

                                WITNESS

Jackson, Hon. Lisa, Administrator, U.S. Environmental Protection 
  Agency.........................................................    17
    Prepared statement...........................................    19

                          ADDITIONAL MATERIAL

Those sand castles could hold hidden health hazard, Providence 
  Journal, August 18, 2009.......................................    37
R.I. Waters are No Day at the Beach, ecoRI News, July 24, 2011...    40

 
    ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2013 BUDGET HEARING

                              ----------                              


                        THURSDAY, MARCH 22, 2012

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Whitehouse, 
Udall, Barrasso, and Sessions.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. I would like to begin by 
welcoming Administrator Jackson to this oversight hearing on 
the 2013 budget for the EPA.
    EPA is charged with implementing critical public health and 
environmental protections including programs that address clean 
air, children's health, safe drinking water, and water quality 
in America's lakes and rivers. EPA's mission is to protect the 
public health including children and families. The agency was 
established with bipartisan support and has demonstrated 
repeated success in improving our families' health and keeping 
the Nation's water clean and safe.
    The President's budget makes tough choices, some of which I 
do not agree with. But I believe overall it maintains a strong 
commitment to EPA's mission. For example, the President's 
budget would make investments in enforcing our Nation's public 
health laws, including assisting in State and local efforts to 
reduce dangerous air pollution. The budget also maintains a 
strong commitment to protecting children by requesting an 
increase in funding for the Office of Children's Health, 
something that is extremely near and dear to my heart.
    The budget proposes reductions in the Clean Water and Safe 
Drinking Water Revolving Loan Funds. In recent years, Congress 
and the Administration have supported significant investments 
in clean water and drinking water infrastructure, and I do not 
believe we can stop now. Recent studies highlight the need to 
maintain robust funding for these infrastructure programs. The 
American Waterworks Association estimates that drinking water 
systems will require at least a billion--excuse me--a trillion 
dollars over the near 25 years, and the American Society of 
Civil Engineers anticipates a water and wastewater 
infrastructure funding gap of $126 billion by 2020.
    I am also very concerned about a proposal to phase out 
EPA's Beach Protection Program. This small be important 
investment helps States to monitor water quality of public 
beaches and protects the public from sickness caused by water 
pollution.
    The budget asks to eliminate $8 million for State and 
tribal programs that reduce health threats caused by radon, as 
well as to end funding for EPA's regional work to reduce the 
risk of radon exposure. According to EPA, this radioactive gas 
is the Nation's second leading cause of lung cancer, and I am 
concerned about these budget cuts given the continuing need to 
address the serious health threats posed by radon.
    As we examine EPA's budget, we must keep in mind the 
positive impact of EPA's work for our economy and public 
health. As I often say, if you cannot breathe, you cannot work. 
The economic benefits of EPA's work are clear. The Clean Air 
Act provides $30 in benefits for every $1 invested, and it was 
responsible for preventing 160,000 case of premature mortality, 
130,000 heart attacks, 13 million lost work days, and 1.7 
million asthma attacks in the year 2010 alone.
    And I often say when I go to schools to talk to the 
children, I always ask them do they have asthma or do they know 
someone, and honestly, between one-third and one-half of the 
kids raise their hands. And asthma is not anything to laugh at. 
It is very, very serious.
    And I think when you look at what EPA's programs have done, 
they have fostered a significant and growing clean tech 
industry. We are the largest producer and consumer of 
environmental technology, goods, and services. The industry has 
119,000 firms, supports 1.7 million jobs, generates $300 
billion in revenues, including $43.8 billion in exports. These 
programs provide clear health and economic benefits for 
America.
    But here is the good news. And Administrator Jackson, you 
should be very pleased, because the American public strongly 
supports the EPA. There is a brand new bipartisan poll released 
yesterday by the American Lung Association. It finds that two-
thirds of the voters favor EPA's efforts to set stricter air 
pollution standards, and a 2 to 1 majority believes that 
strengthening safeguards against pollution will encourage 
innovation and create jobs.
    I stand with the American people, and as Chairman I will 
fight any efforts to undermine your work. The President's 
budget makes tough choices, and I am going to be heard on some 
of the ones that I do not agree with. But I would say again it 
maintains a long standing commitment to provide clean air, 
protect safe drinking water, and safeguard the health of our 
children and our families.
    I look forward to your testimony.
    I have a request from Senator Inhofe that everyone--oh, he 
is going to make his own request, because I was asked by your 
staff.
    I am very, very pleased to welcome you today, and we look 
forward to hearing from you.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you. The other request is, I did not 
realize that I had a much longer statement to be a part of the 
record but we will have to put that in there----
    Senator Boxer. Without objection.
    Senator Inhofe. Administrator Jackson, it is always good to 
see you, and your visit to the EPW Committee today is timely. 
It comes right at the time when President Obama is in my State 
of Oklahoma touting the virtues of fossil fuel. And that is 
wonderful. I do not expect the President is going to say too 
much about some of the things that have happened here, because 
it is not going to sell too well, although I have been told 
that his audience is restricted to 150 of his personal friends, 
and the media has been hand selected. So, it will be 
interesting to see what happens.
    Let me say again I have a great deal of respect for you and 
always have in the relationship, in large part because you and 
I have always been straightforward and honest. You know, I 
understand your job is to carry out the policies of the 
President. That is what you do. That is your job description. 
That is not mine. And in some of these areas that we have had 
disagreement, I always say that we do it with smiles on our 
faces and do it in the spirit of friendship.
    And it did not go unnoticed, Madam Chairman, to the 
Administrator when I visited with her before the meeting that 
when I was on the Rachel Maddow show that I declared my three 
favorite liberals to be Rachel and Barbara Boxer and Lisa 
Jackson.
    Senator Boxer. Well, I do not like the order.
    [Laughter.]
    Senator Inhofe. Well, actually, no, I did have you first.
    [Laugher.]
    Senator Inhofe. You were not third. Rachel was.
    Senator Boxer. Good point.
    [Laughter.]
    Senator Inhofe. Well, anyway, right now the President is in 
Oklahoma, and he standing in the middle of an oil field and 
talking about the virtues of fossil fuel. It is kind of 
interesting that he is doing that in that his budgets that he 
has put forward have been very punitive to that industry. He 
has made the statement how expensive it would be. His agenda is 
one that has specifically increased the price of gas at the 
pump and the energy in our homes.
    And remember, it is President Obama himself who said that 
his policies would necessarily, under his energy costs, would 
necessarily skyrocket. Those are his words. And that is true, 
and that is what has happened.
    Now, the global warming movement has collapsed. I can see 
why President Obama is trying to associate himself with oil and 
gas development in Oklahoma.
    As CNN--you might want to listen to this, Madam Chairman. 
This is good. CNN wrote a piece about Cushing, Oklahoma. That 
is right at the convergence of our pipelines, and it is about 
30 miles west of my home town. It said the place is booming. 
There is a shortage of workers around. I mean we now, 
nationally there is actually a shortage of engineers and oil 
workers and skilled and unskilled laborers. In fact, petroleum 
engineers, petroleum engineers graduating from school can earn 
upwards of $90,000.
    What is Oklahoma's secret? Oklahoma's secret is that we are 
developing our own resources. Oklahoma has over 83,000 
producing wells and 43,000 producing natural gas wells. 
Oklahoma City University found in 2009 that the Oklahoma oil 
and gas industry supports 30,000, 300,000 jobs and contributes 
$51 billion to the State's economy every year. Now, that is 
exactly why Oklahoma's unemployment rate is consistently much 
lower than the national average.
    We are seeing that in other areas, by the way. I would say 
in North Dakota. Their biggest problem up there is finding 
workers. And it happens that Harold Hamm, who has been a 
witness twice before this Committee, from Unit, Oklahoma, is up 
there right now in those shale deposits, and he is really just 
cranking that stuff out. But there is no unemployment in that 
area. And so, this is significant.
    Now, I really think that with the President's campaign 
going he wants to take credit today for part of the Keystone 
Pipeline that will be constructed from Cushing, Oklahoma, to 
Port Arthur, Texas. I would like to remind everyone, I do not 
have to remind everyone, everyone knows it was the President 
unilaterally that stopped the XL Pipeline and particularly that 
area going through Nebraska. And it happens that his authority 
does not allow him to do the same thing to the south, and 
therefore he is there making his statements about how friendly 
he is to oil and gas.
    But even as President Obama stands in the oil field 
pretending to support this pipeline, he continues full force 
with his efforts to regulate fossil fuels out of existence, 
spearheaded in large part by your agency. His EPA is moving 
forward with an unprecedented barrage of expensive rules from 
greenhouse gas regulation to hydraulic fracturing to clean 
water regulations to utility MACT with the express purpose of 
eliminating fossil fuels.
    I just want to make sure I have in the record the specific 
things he has done in his, attempted to do unsuccessfully in 
his budgets over the last 4 years would be to the percentage 
depletion, the section 199, and the expensing of intangible 
drilling costs. Those are things that would have been very, 
very damaging to the industry.
    So, right now, in a minute, we will get a copy of his 
speech that he has made, and perhaps we will still be in 
session, and I will be able to do that.
    Let me say, also, Madam Chairman, that once again not your 
fault, mine, or anyone else's, but this coincides with the 
Armed Services Committee, so I will be going back and forth.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Good morning, Administrator Jackson. I want to thank you 
for coming to discuss EPA's priorities for the coming fiscal 
year.
    As I went through your proposed budget, I saw four themes 
emerge. Admittedly, you may not agree with my interpretation. 
First, an escalation in climate change funding; second, 
increasing the cost of fuel at the pump; third, beefing up 
EPA's regulatory budget while cutting the States' ability to 
deal with new unfunded mandates; and finally, negative impacts 
on rural America.
    The proposed budget for EPA to address climate change has 
expanded to nearly a quarter of a billion dollars. I find this 
strange given that you yourself have admitted such activity 
will do nothing to affect the course of global temperatures. In 
these tough economic times, it doesn't make sense to spend $240 
million on something that will have no effect. An additional 
$56 million is requested to expand various air programs. Most 
of these programs are already in existence, and under this EPA 
their impacts have been calamitous for Americans. The funds 
requested by EPA are being used to create draconian new 
regulations with the goal of driving up electricity and 
gasoline prices. As you stated in an interview with Energy Now, 
the goal is to ``level the playing field'' among energy types. 
This is not Congress's intent with the Clean Air Act.
    I also found it interesting that you proposed to increase 
your budget for Federal Vehicle and Fuel Standards 
Certifications. Inevitably, I'm sure this division within EPA 
will be working hard to increase the price at the pump, which 
is way too high in many areas, Oklahoma included, at over $4 
per gallon. EPA's policy of increasing the price of fuel 
certainly seems to be working: AAA notes that gas prices are up 
108 percent since President Obama took office. An example of 
this strategy at work is Tier 3 Gas Regulations, which will 
raise the price of gasoline.
    In addition EPA has, in the past year, required petroleum 
marketers to pay millions of dollars in fines for not 
purchasing biofuels that weren't even commercially available. 
They issued notice of violations to Renewable Fuel Standard 
(RFS)-obligated companies that tried to comply with the RFS in 
good faith under the system EPA created. These companies were 
rewarded with over a $100 million worth of liability with no 
end in sight.
    Instead of taking a hard look inside EPA and making 
difficult choices about programs that burden our economy, this 
budget cuts the funding to States that actually pay for some of 
the unfunded mandates imposed on communities. Last year I 
raised my concerns that EPA had taken nearly 83 percent of 
their total budget cuts from the water programs, primarily from 
the State Revolving Fund (SRF) program. EPA is again cutting 
the SRF program, which helps States finance infrastructure 
improvements to help meet Clean Water Act and Safe Drinking 
Water Act mandates. I've looked at EPA's water regulatory 
agenda, and I have not seen a commensurate cut in unfunded 
mandates. In fact, this year EPA is proposing to expand the 
amount of waters that are covered by the Clean Water Act 
through their draft jurisdictional guidance. I encourage my 
colleagues on the Appropriations Committee to restore this cut 
to the SRF and take those funds from the regulatory program.
    Even on areas where we have bipartisan agreement, like 
Brownfields or DERA (Diesel Emissions Reduction Act), you have 
proposed to cut these programs while increasing the funding for 
your political priorities. I am sure I am not the only one 
today who is disappointed to see you reduce the overall funding 
for the Brownfields program. What I am surprised by is EPA has 
somehow proposed to increase its own administrative costs with 
the program while decreasing the 104(K) and 128 grants. So EPA 
should be paid more to do less? I am also troubled by your 
decision to cut DERA in half and the impact it will have on the 
progress we have already made.
    Rural America has been hit especially hard by EPA's 
regulatory overreach. Fourteen years ago EPA tried to regulate 
propane dealers under the Emergency Planning and Community 
Right-to-Know Act (EPCRA) even though they didn't meet the 
definition of the program. In response, I introduced 
legislation which was signed into law to stop it. Now, under 
the same program, you are trying to force the ag retailers to 
comply with the reporting requirement under section 312 of 
EPCRA, even though the law currently exempts them. EPA is 
proposing that the simple mixing of fertilizers to meet 
customers' specifications for their soil negates the current 
exemption that they have under EPCRA. Does EPA expect to 
require farmers to now go to Walmart or Target for their 
fertilizer needs? Maybe EPA doesn't understand rural America, 
but I do. If EPA continues down this road they will be imposing 
additional costs on hundreds of small businesses and farmers in 
rural America. I would ask that you rethink your approach. If 
you won't apply this exemption to the ag retailers, I will not 
hesitate to work with Chairman Lucas from Oklahoma to make sure 
the exemption is applied.
    Thank you.

    Senator Boxer. OK, since Senator went over 30 seconds, I am 
going to take 30 seconds to say this.
    President Obama has always endorsed an all of the above 
strategy when it comes to energy. This is not the Energy 
Committee. It is the Environment Committee. But I feel that I 
want to put this in the record.
    We have had more domestic drilling, to the point where in 
2011 American oil production reached the highest level in a 
decade, and gas production, the importation of oil, has gone 
down every single year since President Obama took office. And 
natural gas is at an all time high in terms of production.
    So, all this talk about how the President is against this 
is incorrect. And he is for an all of the above strategy. He 
may not want to drill in places where it hurts the fishing 
economy, the recreation economy, the tourist economy, but he 
sure is showing by facts, not since yesterday and not since gas 
prices went up, but since he came in that he is going to move 
forward.
    So, I really do think the facts belie my dear friend's 
comments. I really do.
    And we will move on.
    Senator Inhofe. Well, since you went over your 30 seconds--
--
    Senator Boxer. No I did not----
    Senator Inhofe. You were over by a minute and a half, let 
me just have 30 seconds to respond.
    Senator Boxer. No, I did not. I did not.
    Senator Inhofe. That is exactly the same thing our friend 
Rachel Maddow said----
    Senator Boxer. I did not go over. But I am happy to give 
you 30 seconds more.
    Senator Inhofe. OK. And I was saying that in spite of, we 
agree on this. We agree that in spite of all of his punitive 
things he has tried to do, which I have already said in my 
opening statement, fortunately a lot of these shale deposits in 
area where the Marcellus is, up in Pennsylvania and New York, 
people think normally it is all out west. We have had 
tremendous opportunities, and in spite of his policies, we have 
increased our production and will continue to so do.
    And if we could get all of the politicians out of the way, 
we would be able to be totally independent of the Middle East 
not in a matter of years but in a matter of months.
    Senator Boxer. Well, do we, we have 2 percent of the 
world's proven----
    Senator Inhofe. No, that is not true.
    Senator Boxer. Proven supplies. Well, we are not going to 
go off on this. I will----
    Senator Inhofe. Well, I cannot leave it at that though 
because that is not true----
    Senator Boxer. No, no, we are not going to do this. You----
    Senator Inhofe. We have the largest recoverable reserves--
--
    Senator Boxer. Senator Inhofe, my dear friend----
    Senator Inhofe [continuing]. Of any country in the world.
    Senator Boxer. I just want to say this is not the Energy 
Committee. This is the Environment Committee. You used your 
time to slam our President. And I take offense at it. And I 
will tell you right now if he is so punitive, why are the oil 
companies making more money than ever before in history, record 
profits? They are singing in the boardroom.
    And we are going to move off this, and we are going to go 
to Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman. I 
did not want anybody to hear what I was going to say.
    [Laughter.]
    Senator Lautenberg. Not that I would pick sides here.
    [Laughter.]
    Senator Lautenberg. Pick on somebody your size, Chairman.
    [Laugher.]
    Senator Boxer. Are you talking to me?
    [Laugher.]
    Senator Lautenberg. I have 45 seconds more. OK, serious 
business here.
    Thanks, Madam Chairman, for holding this hearing. It is 
hard to believe but we are essentially friends on this 
Committee, and I hope that we will continue to be after this 
hearing.
    Politicians talk about how Congress needs to balance its 
budget the same way everyday Americans do. They sit at their 
kitchen table, plan their household budget, crunching the 
numbers to see what they can or cannot afford. But no American 
would try to balance their family's budget by cutting out money 
for batteries for the hallway smoke detector or putting off 
getting new brakes for the family car.
    It would be just as reckless for Congress to sacrifice the 
public's health and safety in the name of fiscal austerity. Yet 
that is precisely what our colleagues on the other side of the 
aisle have proposed when they say we should cut the 
Environmental Protection Agency's budget.
    The EPA performs critical service to our country and 
enforces the laws that keep the air our children breathe and 
the water they drink clean. Administrator Lisa Jackson has 
provided able leadership for the agency, and we miss her in New 
Jersey when she headed the Department of Environmental 
Protection. She did such a good job and--thank goodness--is 
carrying forward in her task here. We are very proud of your 
work.
    Over the last year, we have seen EPA take important steps 
to protect the health of our families and restore our 
environment. After years of delay by polluters and their 
allies, EPA finally finalized new pollution standards that will 
cut mercury and toxic air pollution. These standards will 
prevent asthma attacks, heart attacks, and even premature 
deaths. They will also protect children from mercury, brain 
poison for children that can cause developmental problems and 
learning disabilities.
    The EPA also worked with the DOT to set new auto pollution 
and fuel efficiency standards for cars and trucks. By nearly 
doubling the performance of our vehicles, these standards will 
cut America's oil dependence, clear our air, and save consumers 
money at the gas pump.
    But despite its record of success, the EPA is once again 
under attack. For example, some Senators have launched efforts 
to subvert the EPA's ability to carry out the Clean Air Act. I 
think what they ought to do if they are opposed to improving 
the Clean Air Act is maybe poll their constituents and ask for 
the homes that have an asthmatic person in that household, ask 
them how they feel about saving some dough on the backs of 
their kids.
    My family will never forget an asthma attack that took my 
sister's life. She was at a school board meeting, tried to get 
to the respirator that she had in her car, collapsed in the 
parking lot, and she died 3 days later at the age of 52. And I 
have a grandson who has asthma. And when my daughter takes him 
to play ball or whatever sports he is engaged in, she first 
checks to see where the nearest emergency facility is.
    So, it is serious stuff, and we ought to stop playing games 
with this. Since it became law in 1970, the Clean Air Act has 
protected our health and the environment from the dangers of 
toxic air pollution. In 2010 alone it prevented more than 
160,000 premature deaths and more than 1.7 million child 
respiratory illnesses. These are more than just statistics. 
Just like Administrator Jackson, I have family members, as I 
mentioned, that suffer from asthma. Our families know that 
asthma is a serious disease that can mean life or death, and 
its growth in our population is enormous.
    The Clean Act, the economic benefits are also clear. When 
air pollution is severe, healthcare costs soar, and 
productivity plunges. Businesses know that employees who cannot 
breathe are employees who cannot work. Gutting the Clean Air 
Act will do nothing to help our economic recovery and nothing 
to close our budget deficits.
    I agree we have got to fix the Nation's budget challenges. 
But no American would balance their household budget by 
skimping on their family's safety, and Congress should not be 
putting austerity above public health. I applaud the EPA for 
making responsible choices in the budget, although I am 
concerned about some cuts, such as the Beach Act Grant Funding.
    So, I look forward to hearing from Administrator Jackson 
about this budget and about how this Committee can help the EPA 
continue its vital public mission, improving the health of the 
American people.
    Senator Boxer. Thank you, Senator.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you very much.
    It is good to be with you, Administrator Jackson. You have 
an important agency. As Ranking Member of the Budget Committee, 
I know how tight our budget is. You do important work but you 
have to be accountable like every other agency. And I know you 
would agree with that and we expect smart, cost-effective 
programmatic actions out of your agency.
    Senator Inhofe, I noticed yesterday's Washington Post had 
their Pinocchio Honesty Report, and they quote President Obama 
as saying if we went to your house and we went to the mall and 
put up those rigs everywhere, we would still have only 2 
percent of the world's known oil reserves. The Washington Post 
said, ``That is simply wrong. The President is on an energy 
tour this week, and then on Wednesday he once again made this 
claim. We hope he finally drops this specious logic from his 
talking points. Two Pinocchios.''
    Senator Inhofe. Good.
    Senator Sessions. The budget picture, 2013 would be the 
fifth consecutive year of a trillion dollar deficit. Under the 
President's 2013 budget, annual Federal spending reaches 
$44,000 per household in 2022, and Federal debt reaches 
$200,000 per household by 2022.
    As the size of the Federal Government grows, the middle 
class is being squeezed from all directions. Real wages are 
declining. Food and energy prices are rising. Job prospects 
remain scarce. But one area has received extraordinary 
increases in funding, and that is the Environmental Protection 
Agency.
    And my constituents ask me frequently why is EPA so much 
involved now in impacting our lives like we have never seen it 
before? And I have heard complaints to a degree, Administrator 
Jackson, that I have never heard since I have been in 
Washington.
    The answer? Since taking office, President Obama has had 
EPA operating at a surged budget. Since 2009 EPA has received 
$12 billion more in funding than 2008 baseline levels would 
have allowed. In fact, when it took office the Administration 
and the Democratic control of Congress gave EPA a 100 percent 
increase in its budget in 1 year counting the stimulus. The 
money came, as I said, as a policy decision from the 
Administration.
    Unfortunately, this rapid increase has led to problems and 
waste. EPA spent over $1 million, for example, on a large 
square, 27,000 square foot green roof at the top of the World 
Wildlife Fund headquarters in D.C. In 2010 EPA received a 38 
percent budget increase over 2008 levels, and every year since 
they have been funded well above that baseline.
    What are the priorities? I am concerned about how the money 
is being allocated. EPA's budget says their No. 1 priority is 
climate change. They are asking for at least $32 million in 
increased funding for climate change protection. In fact, EPA 
plans to spend $140 million more on their regulations and 
management programs. That means we should expect to see more 
costly mandates from Washington.
    They also plan to increase their spending on EPA regulators 
and scientists. At the same time, EPA plans to cut spending to 
the States by $257 million. The State partnerships are 
important, and they do play a major role in how we conduct our 
efforts to improve our environment.
    You also plan cuts for brownfields redevelopment. So, I was 
disappointed that your agency would ask for $15 million in 
increased funding for enforcement efforts while just this week 
the Supreme Court ruled 9 to 0 in the Sackett case that EPA had 
abused its authorities.
    The tsunami of costly regulations is driving up energy 
prices and is hindering economic growth. The Environmental 
Protection Agency's Utility Map, Cross State Air Rule, Coal Ash 
Rule, Cooling Water Intake Rule, rules on farmers and 
regulations of pesticides, taking that away from States would 
together impose a significant burden on our economy, and it 
results in multiple complaints to me, from my constituents, 
that these rules are not realistic, they are being imposed too 
fast, and the cost exceeds the benefits. Twenty-one billion 
dollars in annual costs on the U.S. economy would be imposed by 
these new regulations. That is annual cost. That is about half 
of the Highway Bill we worked so hard to try to find the money 
to support.
    So EPA declares their rules will only result in a 3 percent 
increase in electricity rates, but it looks like it may be as 
much as 10 to 20 percent.
    Madam Chairman, thank you for the opportunity to have this 
hearing. All of us are going to have to tighten our budgets, 
and I encourage EPA to do that same. And I believe you need to 
be held accountable and each program analyzed aggressively to 
see if they justify the taxpayers' dollars being invested in 
it.
    Thank you.
    Senator Boxer. Senator Sessions, thank you.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair.
    I would like to welcome Administrator Jackson back to our 
Committee.
    I have some concerns about the Beach Protection Budget that 
we can discuss as the budget process moves forward, very, very 
important to Rhode Island. And I wanted to mention another 
thing that is very, very important to Rhode Island is that 
there be proper enforcement of the Clean Air Act. We are a 
downwind State. On a bright summer day you drive into work, and 
the drive time radio is often saying that today is a bad air 
day, and infants should stay indoors, and seniors should stay 
indoors, and people should not engage in vigorous outdoor 
activity, all because of toxic emissions that are being dropped 
onto us by Midwestern coal plants and power plants.
    That sentiment has been echoed; it is not just a Rhode 
Island and downwind States sentiment. The American Lung 
Association has just done a poll that shows 73 percent of 
Americans understand that you can have solid clean air 
standards and a strong economy, that they go together. Seventy-
eight percent of independent voters agreed. Sixty percent of 
Republicans agreed with that. The poll showed that 72 percent 
of Americans supported your new protections on carbon emissions 
for power plants.
    So I know you get a lot of static here in DC about what you 
are doing. This is a unique place where special interests--
particularly polluting special interests, I think--have a 
disproportionate voice. But in the downwind States and among 
the general American population, we are in accord with you. 
Indeed, we are counting on you. So I thank you.
    And I will close by mentioning a show that I watched when I 
got home last night on the Nova science program about what is 
happening at the Poles, in the Antarctic and in the Arctic 
regions. Once again, we have a situation in which Washington is 
disconnected from the real world. My theory that it is 
disconnected by special interest money from the real world, by 
polluting special interest money from the real world, and so 
the facts of what we are doing with our carbon pollution to our 
oceans and to our atmosphere are being manipulated and 
propagandized.
    But I believe that out there in the real world where people 
are looking at real facts, where they are not under the shadow 
of special interests, people have strong support for your 
efforts to get our carbon pollution under control, and I urge 
you to continue to stand strong and appreciate very much that 
you have stood strong. And anything we can do to make sure we 
have your back on that I am interested in doing. It is very 
important to Rhode Island as a downwind State to have clean air 
for our citizens.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman.
    The Obama administration officials regularly try to justify 
their excessive red tape by citing misleading and incomplete 
health statistics. Meanwhile, they completely ignore how these 
exact same regulations destroy jobs and destroy communities. 
When Americans lose their jobs, their health and the health of 
their children suffers.
    These are the findings of a new minority report that I am 
releasing today as Ranking Member of the Subcommittee of Clean 
Air and Nuclear Safety. The report is entitled Red Tape Making 
Americans Sick, a New Report on the Health Impacts of High 
Unemployment. This is a comprehensive report, and it contains 
expert testimony before this Committee and the best scientific 
medical research from institutions such as Johns Hopkins, 
Columbia, Yale, and others.
    This key medical research and testimony details the public 
health consequences of joblessness. And the joblessness is 
caused as a result of the cumulative impact of the EPA's 
ongoing regulations. Specifically, these impacts from 
joblessness will increase the likelihood of hospital visits, 
increase the likelihood of illnesses and premature deaths in 
communities.
    This joblessness will raise healthcare costs, will raise 
questions about the claimed health savings of the EPA's 
regulations. And these regulations, through this impact, hurt 
children's health and hurt families' well-being.
    As detailed in this report, this Committee has heard some 
of these findings before. Doctor Harvey Brenner of Johns 
Hopkins University testified before this Committee on June 
15th, and he warned that ``the unemployment rate is well 
established as a risk factor for elevated illness and mortality 
rates in epidemiological studies performed since the early 
1980s.''
    It is true that studies as far back as 1985 have warned of 
the health impacts on unemployment. A study published that year 
in the American Journal of Public Health by Dr. Margaret Lynn 
found that after unemployment symptoms of somatization, which 
of course includes pain, gastrointestinal, sexual symptoms, and 
a whole bunch of different symptoms, also depression and 
anxiety, were significantly greater in the unemployed than in 
the employed.
    More recent studies include Yale researcher Dr. William 
Gallo who released a study in 2006 and that found that 
``results suggest that the true costs of late career 
unemployment exceed financial deprivation and include 
substantial health consequences.''
    Unemployment's health impact on children is also discussed 
in the report. The National Center for Health Statistics has 
found that children in poor families were four times as likely 
to be in fair or poor health as children in families that were 
not poor. The research in the report speaks for itself.
    The concern about unemployment's impact on public health is 
a concern for at least one former Obama White House official. 
As reported in the New York Times on November 17th of last 
year, White House Chief of Staff William Daley asked one 
interest group lobbying for stricter EPA rules, an interest 
group lobbying the Administration for even stricter EPA rules. 
Mr. Daley said, ``What are the health impacts of 
unemployment?''
    I and my colleagues in Congress have urged the EPA to 
seriously consider the cumulative impacts of their rules and 
how they negatively impact jobs, families, children, and the 
elderly. Finally, on Tuesday the Obama administration made a 
surprising announcement in this regard. The White House 
announced a new policy on studying cumulative impacts.
    Now, finally, after much of the damage has been done to 
employment and public health, the Obama administration now 
wants to find out what is happening across the United States 
because of their rules.
    Well, here is the answer. Their rules, closing power 
plants, shutting down factories, raising gasoline and 
electricity prices, costing jobs, they all cost jobs, and they 
make people less healthy as stated in this report.
    So, I will release this report, Red Tape Making Americans 
Sick, a New Report on the Health Impacts of High Unemployment. 
Studies show EPA rules cost Americans their jobs and their 
health. I would recommend it to every person who works at the 
Environmental Protection Agency.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator. I look forward to 
reading it. We have a majority report called a Strong EPA 
Protects Our Health and Promotes Economic Growth, and the 
executive summary points out that since the passage of the 
Clean Water Act, the Clean Air Act, the Safe Drinking Water 
Act, Superfund, and many of these signed, but most of these 
signed by Republican Presidents, our gross domestic product has 
risen by 207 percent, and it remains the largest in the world.
    I find it rather amazing that one small agency would be 
blamed for all the troubles we are going through. And I would 
say if anyone cares about jobs, have the House ask Speaker 
Boehner to bring up the bipartisan Transportation Bill. Three 
million jobs are at stake.
    So, let us--this Committee has a great role in definitely 
creating job through this Transportation Bill which I am so 
proud is bipartisan.
    We will call on Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair, and welcome, 
Administrator Jackson. Great to have you here again.
    I wanted to talk to you about a couple of issues in the 
questioning, but I thought I would highlight at the beginning 
here the fact that the President just visited New Mexico and 
Oklahoma on an energy trip promoting his all of the above 
energy strategy where he is saying that all of our energy 
sources should be developed.
    In New Mexico we have an area rich in oil and gas called 
the Permian Basin, which is having an extraordinary boom at 
this time. And he highlighted by his visit to New Mexico that 
that boom that was going on and the increased of oil production 
in the United States. And in fact, I think he went to Oklahoma 
following New Mexico, and there was a problem there with 
pipelines not being able to get supply out, and he issued an 
Executive Order to move that along.
    So, I think the President is working very hard, Madam 
Chair, to try to do everything he can. And it seems to me that 
we are seeing from Republicans a lot of change in position, 
especially Mitt Romney. I mean, in 2006 Governor Romney said, 
and this is a direct quote, ``I am very much in favor of people 
recognizing that these high gasoline prices are probably here 
to stay.'' And the New Republic covered it in an article just 
recently here that I would like to submit for the record, Madam 
Chair.
    Senator Boxer. Without objection.
    Senator Udall. The title of the article is When Romney 
Liked High Gas Prices. And in fact it highlighted that he was 
very much for a lot of the plans that President Obama has put 
forward today.
    On this issue of gas prices, I would note that the 
Associated Press recently conducted a comprehensive statistical 
study going back 36 years, and the study shows no correlation--
underline no correlation--between U.S. drilling and gasoline 
prices. Gasoline prices are driven by oil prices which are set 
on the global market. The U.S. has the highest rate count in at 
least 25 years, but we do not control global supply and demand.
    So that is something that I think consumers need to realize 
and understand. Even if we were totally oil independent, like 
Canada is, we would still pay global prices since oil can be 
traded globally. In fact, U.S. gasoline prices are some of the 
lowest in the world due to our low gasoline taxes. We live in a 
market economy. The last time a President could set the gas 
price was when Republican Richard Nixon imposed price controls.
    President Obama, as I have said, highlighted on this trip 
all of the things that he is trying to do, and I think he is 
making a good, solid effort at trying to move us in the right 
direction in terms of renewable energy and also making sure 
there is a strong domestic industry.
    And so with that, Madam Chair, I would yield back.
    [The referenced article follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Boxer. Thank you.
    Now we are honored to hear from Administrator Jackson.

        STATEMENT OF HON. LISA JACKSON, ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Jackson. Thank you so much, Madam Chairman, Ranking 
Member. Thank you for inviting me to testify on the President's 
fiscal year 2013 budget. It is good to see all the members of 
the Committee here today. It is the fiscal year 2013 Budget for 
the EPA. I am joined by the agency's Chief Financial Officer, 
Barb Bennett.
    EPA's budget request of $8.34 billion focuses on fulfilling 
EPA's core mission of protecting public health and the 
environment while making sacrifices and tough decisions, the 
kind that Americans across the country are making every day.
    EPA's budget request fully reflects the President's 
commitment to reducing Government spending and finding cost 
savings in a responsible manner while supporting clean air, 
clean water, and the innovative safeguards that are essential 
to an America that is built to last.
    In some cases, we have had to take a step back from 
programs. This budget reflects a savings of $50 million through 
the elimination of several EPA programs and activities that 
have either met their goals or can be achieved at the State or 
local levels or by other Federal agencies.
    Let me spend a moment discussing major elements of our 
budget request. This budget recognizes the importance of our 
partners at the State, local, and tribal level. As you know, 
they are at the front lines of implementing our environmental 
laws like the Clean Water Act and the Clean Air Act.
    In fact, the largest portion--40 percent of the funding 
request--is directed to the State and Tribal Assistance Grants 
appropriations to support their efforts. Specifically, this 
budget proposes that $1.2 billion--nearly 15 percent of EPA's 
overall request--be allocated back to the States and tribes in 
categorical grants. This includes funding for State and local 
Air Quality Management Grants, Pollution Control Grants, and 
the States' General Assistance Program.
    The budget also proposes that a combined $2 billion--
another 25 percent of EPA's budget request--goes directly to 
the States for the Clean Water and Drinking Water State 
Revolving Funds. This funding will help support efficient 
system wide investments and development of water infrastructure 
in our communities. We are working collaboratively to identify 
opportunities to fund green infrastructure, projects that can 
reduce pollution efficiently and less expensively than 
traditional gray infrastructure.
    Additionally, EPA's budget request for fund the protection 
of the Nation's land and water in local communities. Reflecting 
the President's commitment to restoring and protecting the 
Great Lakes, this budget requests that Congress maintain the 
current funding level of $300 million for the Great Lakes 
Restoration Initiative. This support will continue to be used 
for collaborative work with partners at the State, local, and 
tribal level and also with non-profit and municipal groups. The 
budget also requests support for protection of the Chesapeake 
Bay and several other treasured and economically significant 
water bodies.
    The budget reflects the importance of cleaning up 
contaminated land in our communities by requesting $755 million 
for continued support of the Superfund Cleanup Program and 
maintains the agency's emergency preparedness and response 
capabilities.
    EPA's budget request makes major investments in its science 
and technology account of $807 million, or almost 10 percent of 
the total request. This request includes $576 million for 
research, including $81 million in research grants and 
fellowships to scientists and universities throughout the 
country for targeted research as part of the Science to Achieve 
Results, or STAR, Program, including children's health, 
endocrine disruption, and air monitoring research.
    Also as part of this request, EPA includes funding 
increases into key areas that include green infrastructure and 
hydraulic fracturing. As I have mentioned before, natural gas 
is an important resource which is abundant in the United 
States. But we must make sure that the ways we extract it do 
not risk the safety of public water supplies.
    This budget continues EPA's ongoing congressionally 
directed Hydraulic Fracturing Study, which we have taken great 
steps to ensure is independent, peer reviewed, and based on 
strong and scientifically defensible data. Building on these 
ongoing efforts, this budget requests $14 million in total to 
work collaboratively with the United States Geological Survey, 
the Department of Energy, and other partners to assess 
questions regarding hydraulic fracturing. Strong science means 
finding the answers to tough questions and EPA's request does 
that.
    We are making investments to support standards for clean 
energy and efficiency in this budget. Specifically, this budget 
supports EPA's efforts to introduce cleaner vehicles and fuels 
and to expand the use of home grown renewable fuels. This 
includes funding for EPA's Federal Vehicles and Fuel Standards 
and Certification Program that supports certification and 
compliance testing for all emission standards.
    This also includes implementation of the President's 
historic agreement with the auto industry for carbon pollution 
and fuel economy standards through 2025 for cars and light duty 
vehicles, including testing support for NHTSA's fuel economy 
standards. Taken together, the Administration's standards for 
cars and light truck are projected to result in $1.7 trillion 
of fuel savings and 12 billion fewer barrels of oil consumed. 
This funding will also help support implementation of the first 
ever carbon pollution and fuel economy standards for heavy duty 
trucks.
    Madam Chairman, thank you for the opportunity to testify 
today. While my testimony reflects only some of the highlights 
of EPA's budget request, I look forward to answering your 
questions.
    [The prepared statement of Ms. Jackson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Senator Boxer. Thank you very much.
    We are going to each have 6 minutes.
    I wanted to start off; there was a big critique going after 
toxic air pollution from power plants, specifically from 
Senator Sessions. And I wanted to talk to you about that 
because we have fought off a couple of amendments already, and 
we know we are going to face some Congressional Review Act 
repeals on either Boiler MACT or Utility MACT.
    And when I get into this, I saw the amazing progress we 
could make if you are able to move ahead. Because we are 
talking here about cutting mercury, arsenic, lead, chromium, 
and other hazardous pollutants that can cause cancer and harm 
the reproductive and developmental systems of our children in 
particular. But it is a threat to everybody.
    So, as I look at your work that you have produced on this, 
you say that once the law is implemented we will see up to 
11,000 premature deaths avoided every year. We will see 2,800 
fewer cases of chronic bronchitis. We will see 4,700 fewer 
heart attacks, 130,000 fewer asthma attacks.
    And I know Senator Lautenberg--I am talking to Senator 
Lautenberg, I just wanted to say that every time you speak 
about losing your sister to asthma, and I am glad that you 
remind us of this because a lot of time you hear these speeches 
about bureaucracy and jobs and things, which I think are off 
base. But we forget about why we set up this entity and what it 
means that when EPA implements the Utility MACT and starts to 
control mercury, arsenic, lead, and chromium and other 
hazardous air pollutants, we will see 130,000 fewer asthma 
attacks every year. We will see 5,700 fewer hospital emergency 
room visits and 3 million fewer restricted activity days.
    So, I guess my question is--and that is why the people 
support what you do, Administrator. When you sit there and you 
here this criticism coming from the other side of the aisle, 
and it is their perfect right to think the way they think and 
do what they do, and we have a big disagreement, and it is very 
respectful. But when I look at you sitting there with your 
people, it must feel pretty darned good to have a job that you 
know, at the end of the day, is going to save 11,000 lives a 
year from just from one rule. And chronic bronchitis and heart 
attacks and asthma, et cetera.
    So I want you to put on the record how you come up with 
these stats so that people know about peer review and who are 
the people making these estimates. Could you tell us? What is 
the process before you come up with these benefits?
    Ms. Jackson. Certainly. There is a well developed body of 
science and scientific research around the air pollution 
impacts on public health. It is probably that part of pollution 
that is best studied from an economics perspective. And what 
happens is that we look at two main drivers, and these are peer 
reviewed studies; they are based on the work of scientists who 
first look at hospital admissions, and they track those 
controlling for other factors, and they also do clinical tests 
where they expose people to levels of pollution.
    The correlation between soot and smog and premature death 
and asthma is not speculative. It is not a possibility. It is 
quite real. It has been estimated, in the case of the mercury 
and air toxic standards, to save up to 11,000 premature deaths 
a year.
    That has real cost to the American people. I think it is 
very important to remember that these strong cuts to mercury 
and other harmful emissions have real benefits to Americans. 
You know, we unfortunately have to put a price on life so we 
can monetize it. But there is also the cost of lost work days, 
of sickness, of children missing school and their caregivers 
with them, all that goes into our economic analysis. They are 
peer reviewed and widely accepted.
    Senator Boxer. Well, I wanted that on the record because we 
battle on the floor on this and we are going to keep on 
battling, and we are going to keep on fighting because you have 
the facts on your side, and we know if it is our mother, or our 
father, or our daughter, or our son, or our sister, or our 
brother, and it could easily be, one of those heart attacks, 
one of those hospital admissions, then we feel it in the gut. 
And it is our job to protect America's families just the way we 
protect our own.
    I wanted to close with asking you a question about the Ryan 
budget. This budget of the President's cuts the EPA by 1 
percent, and I have already stated that I am not happy about 
it. I mean frankly, I feel that the Beach Program is essential 
because, again, that saves lives. I do not like the cuts in the 
Radon Program. Again, I think it is essential. And I am going 
to try to add back those programs. I am not going to ask you 
about your feelings on them. I am sure you fight for these 
program. But we know that the President has to do something.
    But the Ryan budget cuts the EPA by 14 percent, and it 
would amount to $1 billion in cuts. I wanted you to respond 
whether you think that level of cut would, in fact, threaten 
the health of our children and our families, that level of cut.
    Ms. Jackson. Well, we have not done an analysis of the Ryan 
budget yet, Madam Chairman. Let me simply say that EPA has 
taken painful cuts to get down to the 1 percent. It is 
misleading to say 1 percent because we have actually increased 
grants to States and tribes. The document that was put up is 
very misleading. All that money passes through EPA to States 
and tribes on purpose, and I would be very concerned about our 
ability to protect human health when we start looking at a 
larger----
    Senator Boxer. OK. Will you send us, both Senator Inhofe 
and I, the impact of the Ryan budget once you have studied it?
    Ms. Jackson. Certainly.
    Senator Boxer. And I would put in the record, well, I just 
want to put a fact in the record that you make a point I should 
have made, that funding to the States--and that includes the 
tribes--accounts for the largest percentage of your budget 
request. Is that correct, 40 percent?
    Ms. Jackson. That is correct.
    Senator Boxer. In 2013. So, these really are passer funds 
to the States.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Getting back to the, all of the above, which was really our 
mantra, we were really sincere in that above includes coal. 
There has been a lot of concern that the MACT standards for the 
new electric generating facilities are so strict that no new 
coal fire generating stations can be built. We know the 
existing ones and what they are suffering under because 
contracts are being canceled as we speak.
    Information in the rulemaking docket indicates that the new 
unit MACT Standard was set using performance data from Logan 
and Chambers units. But the EPA posted a chart in the docket 
showing six separate test results for Logan with Logan failing 
the standard five out of six times and a similar situation in 
Chambers.
    Well, we told the public that the new unit MACT Standards 
would not prevent new units from being built. And yet your own 
data seems to show that the very units you use to set as a 
standard would fail the compliance test. Am I wrong on that?
    Ms. Jackson. Yes. I believe I disagree with you on that, 
sir. The Mercury and Air Toxic Standards are based on 
achievable technology for the best 12 percent. They look at 
individual contaminants like mercury, arsenic, cadmium, acid 
gases, individually. And one of the concerns we worked closely 
with on industry was looking at condensable versus total 
particulate matter as a surrogate for some of those hazardous 
air pollutants.
    So, we believe that they are achievable. We believe that 
the standards meet the requirements of the Clean Air Act in 
that regard.
    Senator Inhofe. OK.
    Back to Logan. Did they--is it not accurate that they 
failed five out of the six tests?
    Ms. Jackson. Sir, I can certainly look at the individual 
data you are citing. But the Logan Plant I know well. It is a 
well performing facility in New Jersey, so I know it fairly 
well. But I would be happy to respond.
    Senator Inhofe. All right. Thank you, Madam Administrator.
    Actually that is one out of three totally unrelated 
questions, but one of them is--I remember it so well. It was 14 
years ago, and I cannot believe that. I was, at that time, 
Chairman of the Clean Air Subcommittee, we were a majority, and 
you might remember when they came in, they were trying to 
regulate propane on the farms and all of this stuff.
    It is very similar to what is going on today under the same 
program. The EPA is trying to force the ag retailers to report 
when they sell custom blended fertilizer directly to their 
farmer customers, even though the law exempts fertilizers held 
from sale to the ultimate consumers.
    Now, farmers do not buy their fertilizer from Walmart, and 
they have to be custom blended. So, technically, that is 
selling to the ultimate consumer. I just want to get some kind 
of a commitment that we are going to let them enjoy the 
exemption that is in the law right now in terms of the 
fertilizers sales.
    Ms. Jackson. Senator, I try to know everything about the 
EPA's regulatory programs. You have managed to give me one I am 
not familiar with. I am happy to look into it.
    Senator Inhofe. That is a first.
    Ms. Jackson. I am happy to look into the matter and answer 
your question.
    Senator Inhofe. Well, it just makes sense, though. There is 
a reason that we have in the law that they are exempt. And I 
think that the mistake here in the way it is being applied is 
that they consider the ultimate consumer to actually be coming 
from a Walmart or something like that.
    Now, I would say that at least, and responding to this for 
the record, I think that it is important, that we say at least 
when they have to custom blend, which is every case, that they 
should be considered as selling to the ultimate consumer 
because there is a reason for that exemption. That is, what I 
would like to do is get this back from you, and I think this is 
an area where you will agree with this. And so I would like to 
get that back.
    Ms. Jackson. So, you will be submitting a question for us 
to----
    Senator Inhofe. Well, I am already doing it. Why should 
they not--why should this exemption not stand as selling to the 
ultimate consumer because it actually is? OK, that is good. 
That is good.
    The third unrelated thing is on February 22 the EPA sent 
its guidance regarding waters covered under the Clean Air Act 
to OMB for final review. This goes way back. And I can remember 
sitting up here back when Senator Feingold actually introduced 
the Clean Water Restoration Act. Congressman Oberstar did the 
same thing. We have had this before us many, many times.
    It has turned out that could be the most damaging thing in 
terms of ag. The Farm Bureau and other groups like that have 
said this is something that is not livable. So, consequently, I 
was disappointed when we sent the guidance to OMB for final 
review. And not only has Congress pointedly rejected similar 
efforts to statutorily expand the scope of the Clean Water Act, 
the majority of the Supreme Court Justices concluded in the 
Rapanos case, in the Swank case, and only yesterday in the 
Sackett case, that the EPA, that the Government, was exceeding 
its regulatory authority in how to regulate our waters.
    I would ask, how does the Administration's policy, as 
articulated in the new guidance, differ from the overreach that 
was overturned by the Supreme Court? And that was only 
yesterday. However, it has been rejected twice before, in the 
Rapanos case and in the Swank case. And my interest here, of 
course, is to do something about this final rule in terms of 
the, how the water is going to be treated.
    Ms. Jackson. Senator, thank you. The Sackett case decided 
yesterday goes to process, at what point under the 
Administrative Procedures Act, since the Clean Water Act is 
silent on the matter, are those who are a recipient of an EPA 
action allowed to challenge it in court. The Court spoke, 
obviously, very clearly to that point and we will, of course, 
be abiding by that decision.
    They did not speak unanimously as part of the main decision 
to the issue of--the continuing issue of which waters and 
wetlands in this country are jurisdictional. We have heard from 
a number of stakeholders around the country about the confusion 
that is resulting in lack of protection on certain lands and in 
certain areas, and that is what the guidance, which has been 
out for public comment and is now in the process of being 
finalized, is attempting to do.
    Senator Inhofe. Yes, well, I think you probably noticed 
that, I think it is Senator Barrasso is going to be heading up 
an effort. We will be supporting him, Senator Session and 
Senator Heller, with a bill that stops the EPA from finalizing 
the guidance and from using the guidance to make decisions 
about the scope of the Clean Water Act or turn this problematic 
problem into a rule.
    So, we are going to be doing what we can to stop that. But 
I would like to get your response as to how these Court 
decisions are going to impact what you are going to be doing 
with the water issues.
    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman, 
and thank you, Administrator Lisa Jackson. We are proud of the 
work that you and that whole department of yours does. They are 
dedicated people, and I have met with many of them over the 
years starting with my earliest Superfund days. And I know how 
much they feel their commitment to their work is, and they will 
go to work under the oddest of circumstances and fulfill their 
mission.
    We had a brief discussion, I do not know if any of your 
heard it, about whether or not we are the Energy Committee or 
the EPW Committee. But one thing I learned here today is that 
we might be a part of the Budget Committee because what we are 
talking about constantly is the costs of these things.
    I come from having run a very, very large business before I 
got here. And I know one thing. We had to have revenues that 
could carry the business along that was higher than our 
expenses. And here we have a new economic that says to heck 
with it; it does not matter what your revenues are. We do not 
look at that side of things. But yet we dwell on the facts that 
there are more rules, that there are more imposition on 
business and so forth.
    I need a reminder. I have a quote here from Dr. George 
Benjamin, President of the American Public Health Association. 
Pretty reliable. They say, simply, hazardous air emissions are 
linked to a wide range of serious and immediate human health 
risks.
    But here we cannot seem to get the message across because 
we are always talking about costs. And when you talk about the 
costs, and they are important, but do you not sometimes talk 
about the lives that might be saved? Can we not convince our 
colleagues on the other side, somehow or other, that it is not 
a good idea to put your kids up like a canary in a coal mine 
and ignore what the consequences are?
    Now, we had a fellow testify in a hearing we had here on 
mercury emissions, and he was from a small town in Ohio, Avon 
Lakes. The man was a councilman. And he talked about a plant 
that was 42 years old and those scrubbers, but they had to be 
careful about shutting this plant down. It would cost tens of 
jobs, maybe 50 or 60 jobs if we shut the plant down. But I went 
further and I found that in the year 2010, they had 440 asthma 
attacks, 47 heart attacks, 29 premature deaths. They ought to 
go to the members of those families and ask if they can 
continue saving money on the lives and the well being of their 
children. I do not think so.
    Over the past year, EPA has set new clean air standards 
that will cut toxic air pollution from power plants and 
industrial facilities. Unfortunately, there are now efforts in 
the Senate, we hear it, to block new mercury and air toxic 
standards. How many severe illnesses and even deaths will be 
prevented by EPA's new pollution limits? Please.
    Ms. Jackson. The mercury and air toxic standards benefits 
are estimated to be up to 11,000 avoided premature deaths a 
year. Once fully implemented, up to 130,000 avoided asthma 
attacks or asthma symptomatic cases that require attention, 
2,500 fewer cases of bronchitis, and I do not have the number 
of heart attacks here as well. But the numbers are quite 
significant, sir.
    Senator Lautenberg. That is how it is with you bleeding 
hearts. What about the money? Come on.
    [Laughter.]
    Senator Lautenberg. Anyway, Administrator, do you want to 
add something else?
    Ms. Jackson. Oh, I am sorry. We can monetize those 
benefits, and that is about $90 billion, $30 billion, excuse 
me, up to $90 billion in 2016. And that is annual. So, it is 
not fair to say there is only costs. There are benefits. Or 
another way to think of it is you can pay $1 to clean up the 
mercury and the arsenic and the cadmium, or you can pay $10 
taking yourself and your family to the doctor to deal with all 
the pollution and the effects of that pollution. You pay either 
way, and $1 is a better deal.
    Senator Lautenberg. I would say. I am pleased to see that 
EPA's budget increases funding for chemical safety programs by 
$436 million. But there are still more than 80,000 chemicals on 
EPA's inventory, and current laws have limited EPA to testing 
the health effects of just 200. That is over more than 30 
years. Even with this additional funding, do you still believe 
that the Toxic Substances Control Act, TSCA, must be modernized 
in order to protect the public?
    Ms. Jackson. Yes, indeed I do, Senator.
    Senator Lautenberg. EPA's budget completely eliminates 
funding for the Beach Act Grants to help States test and 
monitor water quality. And I wrote the law creating the program 
in the year 2000. It has helped millions of beach-goers ensure 
that a day at the beach is not followed by a day at the doctor.
    What will be the effects on our beaches and beach-goers' 
health if States facing budget crunches are unable to make up 
the difference in lost Beach Act Funds?
    Ms. Jackson. Well, that is the key, Senator. The belief 
here is that the program was started to help States and local 
governments get their beach monitoring and surveillance and 
health systems into place. Our belief is that States are able 
and can fund in a variety of ways those programs. And so we do 
not believe that there will be an impact on health.
    Senator Lautenberg. Yes. And I close by saying that here 
what we are saying is if you do not--if you need oil for car, 
and you do not put it in, just drive faster to make up for it.
    Thank you very much.
    Senator Boxer. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Administrator, to follow up on Senator Lautenberg's issues, 
as you know, Rhode Island was scheduled to take a very, very 
big hit, and you have reduced the hit that Rhode Island takes a 
little bit under the Section 105 Program.
    But when you add in taking the soot particulate matter 
testing and moving that out of Section 103 into Section 105, 
that adds to Rhode Island's hit. And when you pile in the 
elimination of the Beach Protection Grants Program, we end up 
taking it pretty hard in this budget relevant to other States, 
it seems to me anyway.
    So, I just want to let you know that we are going to be 
working very hard to try to address that with you. Once again, 
it was a downwind State. I do not believe we are creating a lot 
of pollution out of Rhode Island that the rest of the country 
has to worry about. And so the fact that our hit seems to be 
going way up when we are one of the less polluting States, we 
are down river of most of the river pollution that comes, we 
are downwind of the air pollution, we do not really harm 
anybody else. So, we will be working with you on that. I just 
wanted to make sure you knew how important this was to us to 
have that recognized.
    There has been some suggestion that the new EPA clean air 
rules could be responsible for fuel shortages in the northeast 
this summer. I think the suggestion has been that Pennsylvania, 
in particular, might suffer a fuel shortage. Everything that 
has to do with what you do is often surrounded with propaganda, 
rumor, and speculation. And I just wanted to get your sense of 
what the facts are on this. I know that Washington has been 
largely fact proofed by special interests on a lot of 
environmental issues. But what are the facts on this?
    Ms. Jackson. Well, there is a specific issue in one 
specific area of the country. It is not related to EPA 
regulation, but EPA is working closely and monitoring the fuel 
supply situation in Pennsylvania and in the Pittsburgh area in 
particular.
    Due to market factors, several refineries which prefer to 
process light, sweet crude have decided that they would rather 
shut down than process heavier, sour crude which is on the 
market these days. That simply means that we need to ensure 
with those refineries gone, the Buckeye Pipeline which serves 
them does not result in there not being a reliable supply of 
gasoline to the economy and customers in that marketplace.
    Sunoco, one of the refineries, has publicly said now that 
they have a plan in place to deliver a reliable supply of 
products in the areas that they serve, even if they fail to 
find a buyer for that one refinery. However, EPA has been 
working with the Department of Energy. We work with the private 
sector, continue to work with them.
    The concerns revolve around the Clean Air Act and the 
portions of the Clean Air Act that lower the volatility of 
gasoline in the summer because, as you know, that is when 
gasoline evaporates and causes smog in our air on hot summer 
days, and it becomes a bit of a cycle.
    We have well established authority to waive fuel standards 
in the event of any kind of actual fuel supply shortage. With 
DOE concurrence, we have used that authority, and we are 
certainly working closely with the State of Pennsylvania and 
the industry and DOE on those issues.
    Senator Whitehouse. We will follow up with some questions 
for the record on the funding and its effects on Rhode Island, 
and I would ask if you could respond to those fairly quickly 
because, in the budget cycle, if we get stalled on that, then 
we are stuck waiting. So, I would ask for your cooperation in 
providing us pretty quick answers.
    And I would like to ask that a Providence Journal article 
from the summer of 2011 be admitted into the record. Madam 
Chairman, I ask unanimous consent for the article to be 
admitted into the record.
    Senator Boxer. Without objection.
    Senator Whitehouse. Thank you. It describes a success 
story, which is that our salt water beach days lost to 
contaminated swimming water decreased by 35 percent in 2010 
from 2009 levels. And it credited some of the big projects that 
Rhode Island has done.
    The Narragansett Bay Commission has built enormous tunnels 
and receiving chambers underground to store stormwater from our 
combined sewer overflow storm systems so that they do not have 
to bypass sewage treatment and they can be held. And when 
capacity is restored at the treatment plant, it can be pumped 
and treated properly. Newport has built a $6 million 
ultraviolet treatment system for stormwater that discharges 
onto Easton's beach.
    We are doing our job. And we have put a lot of money behind 
keeping our water clean. And so it really hits hard when this 
funding is cut off to Rhode Island which, as I said, is a 
largely non-pollution producing State for the country. We are 
certainly dealing with a lot more pollution from other States 
than we create for other States.
    Our Department of Environmental Management has reduced its 
air resources staff from 30 to 20 in the last 3 years because 
of budget cuts. So, we are up against it. And I will be looking 
for your support to work our way through this, but particularly 
a rapid answer to the questions.
    Thank you.
    Ms. Jackson. Thank you, sir.
    [The referenced article was not received at time of print.]
    Senator Boxer. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Madam Chairman, and 
Administrator Jackson.
    You have had a pretty good budget run in the last few years 
by any account, and I do have to say that this country does not 
have sufficient money to continue all our Government agencies 
and departments at the same level of funding. They just do not 
have it.
    And the House Republicans have produced a budget. It is a 
long-term budget that changes the debt course of America. It 
will keep us, hopefully, from hitting a financial crisis as 
Erskine Bowles, President Obama's Chairman of the Debt 
Commission, warned that we are heading to.
    So, I am just looking at the numbers here, and I want you 
to recognize that everybody is going to have to tighten their 
belt. Under the proposals, the Defense Department would take by 
far the biggest reductions, and that is not war funding. That 
is coming down on its own. I am talking about the base Defense 
Budget. They are taking significant real reductions in spending 
and under the sequester would be very dramatic.
    But would you not recognize that even though we are having 
the greatest deficits in the history of the Republic, that your 
budget has been continued upward since 2008 and remains 
considerably above that level?
    Ms. Jackson. Sir, I think that--I do not agree with that. 
We did get a bump up, primarily to fund water infrastructure, 
that is State money, and the Great Lakes Program, which is 
grant money. That does not get spent primarily by EPA by any 
means.
    We took a 16 percent budget cut in 2011, 3 percent in 2012, 
1 percent in 2013, and those numbers are misleading because in 
those times we have increased our funding, as I said in my 
opening remarks, to try to continue to fund the State-based 
programs because we know that State budgets are such that the 
States need the Clean Air and Clean Water Act funding so they 
can keep their programs going.
    Senator Sessions. Well, with regard to the State funding, I 
notice you seemed to react adversely to my comment based on our 
looking at your budget request. And if I am wrong I would like 
to be corrected. But it seems to me that, in fact, on this 
year's budget your numbers for EPA go up and the amount of 
funding to the States go down. Maybe we have that chart I could 
show. That is the numbers we score. You do not dispute that, do 
you?
    Ms. Jackson. I do, indeed. I do not dispute it, and I am 
certainly not saying that you are wrong. I would say I would 
look at those numbers differently. I think that chart is a bit 
misleading.
    The decrease in State and tribal funding that you are 
showing is because the money for the State Revolving Fund 
Programs is being cut. That is the same money that----
    Senator Sessions. Well, is that part of your budget?
    Ms. Jackson. It is. But it is also----
    Senator Sessions. Well, then you propose to cut their 
Revolving Fund money while increasing yours, are you not?
    Ms. Jackson. No sir, we are not. We are proposing to cut 
the places where the largest increases happened in the 2010 
budget, which is the SRF funding.
    Senator Sessions. Well, it seems to me that that is what 
happened.
    Ms. Jackson. Well, sir, if----
    Senator Sessions. And I am just kind of taken aback. I 
mean, the numbers are the numbers. So, whatever it is, the 
Revolving Fund, the money that goes to the States, that has 
been reduced. And would you not--you value the State 
participation, and they are partners in our efforts to make our 
environment better, so I am just concerned about that.
    With regard to your statement about reducing spending, your 
base budget was $7.4 billion in 2008, it jumped to $10.2 
billion, it has basically now been dropped to $8.3 billion, 
which is still a 15, 12 percent increase over where you were 
after having substantial increases over a number of years.
    So I guess my only comment to you and to the Chairman is 
that we are all going to have to tighten our belts. We would 
like for you to give every focus you possibly can on containing 
costs. I believe it can be done better.
    I also think you have to consider the impact that the 
regulations are having on the American people, its impact on 
job creation, the cost of electricity, the cost of gasoline, 
and those kinds of things that are placing our economy at risk.
    How would you respond to my constituents who are telling me 
that they have never seen such a surge of regulatory impact as 
they are now from the Environmental Protection Agency? They 
think much of it is not responsible and unwise.
    Ms. Jackson. I would say that, first, whether it is the 
pace of regulation, which I have signed fewer regulations per 
year than my predecessors, or the fact that several of the 
regulations that are, that we have done, the Mercury and Air 
Toxic Standards, the Cross-State Air Pollution Rule, were the 
result of court decisions that remanded and found previous 
versions of those regulations illegal, and the last I would 
offer is that those regulations--Mercury and Air Toxics is a 
great example--it is $10 of health benefits savings for $1 
invested in our economy. It creates 46,000 short-term 
construction jobs and 8,000 long-term utility jobs. So, the 
American people get health protection and savings in terms of 
what they have to pay to keep themselves healthy.
    Senator Sessions. Administrator Jackson, do you believe 
that when you mandate a company to employ more people to meet a 
regulation than they otherwise would not be employing that that 
is really a job creator? Because it reduces their wealth, it 
reduces their ability to hire people to do productive items. 
The question is whether or not the regulation justifies the 
cost, I believe.
    My time is up, I hear. So that is the kind thing we will 
do. And as to your statement about the health impact on mercury 
and so forth, EPA's number with regard to health benefits are 
widely exaggerated in my view, and I would be glad to see the 
documents that would justify that number.
    Ms. Jackson. They are part of----
    Senator Sessions. Would you submit that to me?
    Ms. Jackson. They are part of the regulatory impact 
analysis for the rules. Happy to do so. And I would also like 
to----
    Senator Sessions. Well, I have examined some of them in the 
past, and they are not, they do not back up what your witnesses 
have said.
    Senator Boxer. Senator Sessions, when you were gone, I 
asked the same questions about are these peer reviewed studies. 
So I would like to get the transcript, the answer that 
Administrator Jackson gave me. But in addition, I would be very 
interested in being copied on this because the point was made 
that if we ever had a regimen that is clear, it is the 
scientific studies that look at hospital admissions and the 
rest.
    So, I think we ought to look at it----
    Senator Sessions. One of the studies was some sort of 
polling data about whether people would pay more, and it was 
not a real health study that they were citing. So, I would just 
like to see it. Maybe--I hope we do get health benefits from 
improved environmental quality.
    Senator Boxer. Well, I think it is good to go back. I have 
so much respect for my friend. And we work together on certain 
issue. But on this one, we are miles--we are different planets. 
Let us face facts. But I think it is good for people to see 
this debate, and I just do not let it go unanswered because 
there is no way under the Clean Air Act you take a poll to find 
out how many premature deaths are being prevented. We have it 
all documented. So, would you please send me a copy?
    And I would ask unanimous consent to place in the record an 
October 4, 2011, very interesting op-ed written by Bruce 
Bartlett. He was, he held senior policy roles in the Reagan and 
George H.W. Bush administrations, and he served on the staffs 
of Jack Kemp and Ron Paul. So it is really interesting, and I 
will put it in.
    But here's the opening. Republicans have a problem. People 
are increasingly concerned about unemployment, but Republicans 
have nothing to offer them. The GOP opposes additional 
Government spending for jobs programs and in fact favor big 
cuts in spending which would likely lead to further layoffs.
    Then he concludes by saying in my opinion, regulatory 
uncertainty is a canard invented by Republicans. It allows them 
to use current economic problems to pursue an agenda supported 
by the business community year in and year out. In other words, 
it is a simple case of political opportunism, not a serious 
effort to deal with high employment.
    Now obviously, Senators Sessions and Inhofe, they would all 
disagree with this, but I think it is interesting. And the 
other is, I think a very important poll that runs, Senator, I 
believe you when you tell me people come up to you at home and 
tell you, and I wrote what you said, the impact on our lives 
from the EPA is nothing that they have ever seen before. That 
is basically what you said. And I totally agree with you that 
that happened in your State.
    I want to just say I have never, never heard that when I go 
home. I have not had one person come up to me and say please 
cancel that Clean Air Act Regulation, I need more pollution 
Barbara; fight against it. And if you look at this, look at 
this poll. Where is the one about the bipartisan poll, broad 
support in the spectrum? When asked about setting stricter 
limits on the mercury that power plants and other facilities 
admit--and that is a reg that is fiercely opposed by my 
colleagues on the other side--78 percent said, of likely 
voters, that they were in favor of the EPA updating these 
standards.
    So we see the world so differently. I find it so intriguing 
the way we come to this. But I am very interested in seeing the 
data that Senator asked for.
    Senator Sessions. Madam Chairman, just briefly, you took 
liberty and I----
    Senator Boxer. No, I am happy to, go ahead.
    Senator Sessions. This is an important issue for us to talk 
about. In an article by Stephen Malloy he says the EPA says air 
pollution kills tens of thousands of people annually, this in a 
par with traffic accident fatalities. While we can identify 
traffic accident victims, air pollution victims are unknown, 
unidentified, and as far as anyone can tell figments of EPA's 
statistical imagination. That is what he says.
    It ought not to be too much to ask EPA to produce some 
tangible evidence that air pollution is causing the actual harm 
to real people. So that is what I am asking for, I guess. Let 
us see the numbers that justify, the data that justifies the 
numbers, and I think the Chairman and I agree on that.
    Senator Boxer. We do agree. And I did ask the question 
before.
    And I ask unanimous consent to put into the record a sheet 
put out by the American Academy of Pediatrics talking about how 
much they support your work. So, we will put that into the 
record.
    Senator Udall, you have the last word unless other Senators 
come, and then absolutely I will call on them.
    [The referenced materials were not received at time of 
print.]
    Senator Udall. Great. Thank you, Madam Chair.
    Administrator Jackson, the U.S.-Mexico border stretches for 
over 2,000 miles and is home to many thousands of people who 
need to be connected to modern water and sewer systems for the 
first time.
    I am glad you are requesting $10 million for border 
environmental infrastructure, but this amount is a fraction of 
what this program has traditionally received. Last year's 
Appropriations Act only provided $5 million. We hear a lot 
about water infrastructure needs. But if all our States faced 
what we see on the New Mexico border, it would be a national 
emergency.
    Will you work with us to ensure that the Appropriations 
Committee includes at least $10 million you request in your 
fiscal year 2013 budget?
    Ms. Jackson. Certainly I am happy to get you any 
information to support what is clearly an important program, 
Senator. These are tough choices, and we are proposing less 
money. We are proposing more than what was in last year's 
enacted, but only slightly more. So, we are happy to get you 
information so that you can make that key.
    Senator Udall. But you are going to aggressively support 
your $10 million, which is what is in the President's budget, I 
believe. Right?
    Ms. Jackson. I believe it is $4.5 million, sir.
    Senator Udall. I believe it is $10 million.
    Ms. Jackson. Oh, I am sorry, I have bad information. It is 
$10 million. I am sorry. Senator, we are absolutely in accord. 
Please forgive me.
    Senator Udall. OK. Thank you.
    The EPA's Border 2012 Program is coming to an end, and I 
understand a new Border 2020 Program is being developed to 
replace it. Will you ensure that border environmental issues 
receive top level attention at EPA headquarters going forward?
    Ms. Jackson. Yes, sir, it is a priority.
    Senator Udall. And you are going to be timely in terms of 
getting out as the one program expires, 2012, a 2020 Border 
Program?
    Ms. Jackson. It is scheduled for, the Border 2020 Program 
launch is scheduled for August 2012.
    Senator Udall. Great. Thank you very much.
    I wanted to talk a little bit with you about the San Juan 
Generating Station and EPA's Regional Haze Plan. There is an 
ongoing disagreement between the U.S. EPA and the State of New 
Mexico about the Clean Air Act Regional Haze Plan for the San 
Juan Generating Station in the Four Corners Region in New 
Mexico. Both EPA and the State appear to be dug in on opposite 
sides with competing plans and cost estimates and complex 
technical agreements.
    I believe most New Mexicans want EPA and the State to 
follow the Clean Air Act and preserve the visibility of our 
great western landscapes and improve public health. But many 
are also concerned about a potential increase in electricity 
rates. I hope that all sides will think constructively about 
win-win solutions here.
    I realize that Region Six has primary responsibility here, 
but will you ensure that EPA headquarters is also engaged on 
this issue and that the EPA continues to work cooperatively 
with the State of New Mexico and our local utilities to work 
through this issue in the best possible way?
    Ms. Jackson. Yes, Senator.
    Senator Udall. Thank you very much.
    And on green infrastructure for the State Revolving Funds, 
or what sometimes is called smart water, EPA's budget request 
continues a 20 percent setaside for green infrastructure 
qualifying projects within the two State Revolving Funds.
    I want to stress that when we talk about green 
infrastructure, we are talking about two kinds of green, 
reducing the amount of concrete and using the natural landscape 
for stormwater systems or installing energy efficient 
improvements at a water treatment plant or both. These are both 
good for the environment. But just as importantly, these kinds 
of projects save green money for water utility ratepayers by 
reducing construction costs and energy bills.
    Will you continue to advocate for these setasides and 
ensure that EPA provides appropriate guidance to States on how 
to implement them?
    Ms. Jackson. Yes, sir. I am a very strong supporter of 
green infrastructure and so are, by the way, mayors and local 
communities who get win-win results.
    Senator Udall. And I know many of our mayors are very 
involved in this and very supportive of it.
    U.S. water utilities waste an estimated 7 billion gallons 
of treated drinking water through leaks and ruptures. Does EPA 
plan to become more involved in promoting smart water systems 
that detect leaks and better manage water systems to reduce 
losses, energy use, and contamination?
    Ms. Jackson. Yes, we are happy to be supportive, both 
funding-wise through the State Revolving Funds but also through 
technical assistance working both with the industry, the 
practitioners, and of course with the States and local 
governments. There is such a need out there, as we heard 
earlier, that we do prioritize with the States where we can be 
financially supportive.
    Senator Udall. Thank you, Administrator Jackson. And I know 
that you have a very good, solid professional staff at the EPA 
and we very much appreciate all of their hard work.
    Thank you, and I yield back.
    Thank you, Madam Chair.
    Senator Boxer. Senator Udall, I thank you so much for your 
patience and asking such good questions.
    And Administrator, we really do appreciate you so much. You 
just tell the truth from the heart, and you are carrying out 
your responsibilities to the people. And all I want to do, as 
Chairman of this Committee, is make sure that you keep that up 
because everybody is counting on you: the little kids, the kids 
soon to be born, and our families.
    Thank you very much.
    We stand adjourned.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]
    [Additional statements submitted for the record follow:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    One of my top priorities this year--which I share with 
President Obama--is to continue to support initiatives that 
spur job growth and create a nurturing environment where 
communities in Delaware and beyond can create a solid 
foundation for job creation and prosperity. I believe, for the 
most part, the President's budget is a responsible solution to 
ensure our continued economic recovery and long-term economic 
growth, providing for a brighter future for Delaware families.
    President Obama's budget proposal continues our efforts to 
save money, reduce harmful air pollution, and improve our 
national security by reducing our Nation's reliance on foreign 
oil and encouraging the deployment of the next generation of 
clean energy and energy efficiency technologies.
    Bringing balance to our Federal budget will be difficult, 
requiring a shared sacrifice. From Government agencies to 
corporations, we need to take a hard look at all of the options 
available to us--both in terms of raising revenue and reducing 
spending--and we all must share in the sacrifices required to 
rein in the deficit.
    However, I am concerned that President Obama's budget makes 
cuts to very effective programs within the Environmental 
Protection Agency (EPA) that not only clean our environment and 
protect our health but also spur economic growth.
    One concern I have is on the dramatic funding cut for one 
of EPA's most successful programs, the life saving Diesel 
Emissions Reduction Act (DERA). This recently reauthorized 
program is a bipartisan, common sense approach to cutting toxic 
diesel emissions that threaten the lives of our communities and 
our children. By retrofitting or replacing dirty diesel 
engines--like those on the school buses that take our children 
to school every day--the Diesel Emissions Reduction Act saves 
lives and creates a demand for clean diesel technology, which 
in turn creates American jobs. The President's budget cuts DERA 
funding in half from fiscal year 2012 and limits the 
Administrator's ability to effectively deliver DERA funding by 
eliminating the grant program. Cutting and limiting the use of 
DERA funding, which has shown a consistent high return on its 
investment--for every $1 invested, we get over $13 in health 
and economic benefits in return--just doesn't make sense.
    I am also concerned with the elimination of funding for the 
EPA's Beaches Environmental Assessment and Coastal Health, or 
BEACH Act, grant program. This program has been very important 
to coastal States like Delaware. Delaware is home to some of 
the Nation's cleanest and most visited beaches. These beaches 
are not only an important recreational and environmental asset 
for our State; they are also an important economic engine for 
the region. By creating confidence that our beaches are safe 
through water quality monitoring and notifications, the BEACH 
Act grant program works to keep visitors coming back to our 
Nation's beaches and investing in our country's coastal 
communities year after year. This type of monitoring cannot be 
done by the States alone and therefore should continue to be 
funded.
    As we work through the budgeting process, I will continue 
to work with my colleagues and the Administration on efforts to 
curb our Federal debt and deficit while ensuring that we invest 
in key priorities for the First State and for the Nation.

                    Statement of Hon. David Vitter, 
                U.S. Senator from the State of Louisiana

    Thank you, Chairman Boxer and Ranking Member Inhofe, for 
holding this hearing to discuss EPA's proposed budget. I would 
also like to thank Administrator Jackson for being here today. 
This could very well be the last opportunity Senate Republicans 
will have to ask questions on the record of Administrator 
Jackson until after the November elections.
    I would like to focus on some key issues in my opening 
statement, all of which I likely won't have enough time to ask 
questions on as we move forward but are nonetheless important.
    Over the last 3 years we have seen multiple regulations 
proposed and move through the process toward implementation. 
Some are being pushed back until after the election, presumably 
because of the economic impact they would have on employment 
and the price of energy. Some of your Agency actions include 
the Cross-State Air Pollution Rule, implementation of expanded 
Clean Water Act jurisdiction, and Tier 3 emissions standards 
that would increase the price of gasoline.
    Some of my colleagues today will likely focus on the litany 
of proposals EPA is promulgating under the guise of protecting 
human health. However, I would note that EPA does no 
microeconomic analysis on the impacts of high unemployment or 
the loss of revenue to small communities from business 
closures, including tax revenue that pays for fire departments, 
hospitals, and schools. In other words, the ability to find 
employment and feed your family are not considerations in EPA's 
health impact analysis.
    Some things I would like to focus on today are the 
following:
     EPA's war on hydraulic fracturing needs to stop. 
Hydraulic fracturing is one of the few bright spots in our 
economy, creating good paying jobs, generating significant 
revenue, and giving domestic manufacturing one of its few 
advantages to compete internationally. That advantage is 
affordable and readily available natural gas, including the 
many derivative products that come from production and 
refining. The regulatory environment in America is not 
competitive, but the price of natural gas is. EPA's war on 
hydraulic fracturing is very much a war on American 
manufacturing.
     It makes little sense for the EPA to continue to try and 
expand its jurisdiction under the Clean Water Act. The issuance 
of a guidance document which proposes expanding jurisdiction 
and permitting authority for both the EPA and the Army Corps of 
Engineers is bad economics and poor policy. Every private 
property owner in America should be particularly concerned in 
light of the Supreme Court's ruling yesterday in the case of 
Sackett v. EPA. That unanimous decision, and Justice Scalia's 
opinion, outline how truly destructive a bureaucracy like the 
EPA can be to individual liberty and private property rights. 
It further lays bare why the EPA should not be attempting to 
expand its jurisdiction. In light of the Supreme Court 
decisions in Northern Cook County (2001), Rapanos (2006), and 
the Sackett decision just yesterday, EPA's desire to expand its 
jurisdiction under the Clean Water Act is inexcusable.
     Finally, there remain significant problems with sound 
science and transparency at the Agency. What is more important 
is there appears to be nobody watching over or implementing the 
much needed reforms. White House Science Advisor John Holdren 
essentially admitted that he has done nothing in the way of 
oversight or reform after numerous instances of shoddy 
scientific work. We know that EPA's chemical assessment program 
is in dire need of reform; both the NAS and GAO have said as 
much. And on the matter of transparency, despite Administrator 
Jackson's newly issued Scientific Integrity Policy, it still 
took nearly 2 months to provide us with the PWG report on the 
Ramazzini Institute. Transparency is still very much an issue.
    Again, thank you, Chairman Boxer and Senator Inhofe, for 
today's hearing. And thank you, Administrator Jackson, for 
making yourself available.

    [Additional material submitted for the record follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                                 [all]
</pre></body></html>
